           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   SUPPLEMENTAL SECURITY INCOME
     RECIPIENTS RECEIVING SOCIAL
  SECURITY-ADMINISTERED PAYMENTS
     IN EXCESS OF FEDERAL LIMITS

     February 2012   A-06-10-21066




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   February 22, 2012                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Supplemental Security Income Recipients Receiving Social Security-administered
        Payments in Excess of Federal Limits (A-06-10-21066)


        OBJECTIVE
        Our objective was to determine whether individuals concurrently entitled to
        Supplemental Security Income (SSI) payments and Old-Age, Survivors and Disability
        Insurance (OASDI) benefits received combined payments in excess of Federal limits.

        BACKGROUND
        The OASDI program provides benefits to wage earners and their families in the event
        the wage earner retires, becomes disabled, or dies. The SSI program provides
        payments to financially needy individuals who are aged, blind, or disabled. In
        December 2010, approximately 2.7 million individuals received both OASDI benefits
        and SSI payments (concurrent beneficiaries). 1

        Under the SSI program, each eligible individual living in his/her own household and
        having no other countable income is provided a maximum monthly Federal cash
        payment of $674. 2 SSA reduces SSI payments by a recipient’s countable income, 3 less
        certain exclusions. 4 An example follows.

        1
            SSA Publication No. 13-11976, Table 1, SSI Recipients by State and County, 2010 (July 2011).
        2
         Also referred to as the Federal Benefit Rate (FBR). The maximum SSI payment increases with the
        annual cost-of-living adjustments that apply to Social Security benefits. The FBR has remained
        unchanged at $674 for individuals and $1,011 for couples since 2009 because, under the automatic
        adjustment provisions of the Social Security Act, SSA did not make cost-of-living adjustments in 2010 or
        2011.
        3
            Countable income includes both countable earned and countable unearned income.
        4
         SSI recipients can have $20 per month in unearned income without affecting their SSI payment. SSA
        considers OASDI benefits as countable unearned income. Monthly unearned income in excess of
        $20 results in a dollar-for-dollar reduction in SSI payments.
Page 2 - The Commissioner


A concurrent beneficiary receives a $600 monthly OASDI payment and has no other
countable income. Because the beneficiary’s OASDI payment is less than the FBR plus
the $20 unearned income exclusion, the SSI payable to the individual is $94 (see
computation below).
             Unearned Income (OASDI Benefits)            $600
              Less: Unearned Income Exclusion             (20)
                     Equals: Countable Income            $580

                                      2011 FBR           $674
                        Less: Countable Income            (580)
                     SSI Federal Benefit Payable           $94

In a prior audit, 5 we identified over 7,000 cases where SSA paid concurrent
beneficiaries excess SSI payments because the SSI computation incorporated OASDI
benefit amounts that were less than the amounts SSA actually paid. We recommended
that SSA correct system errors that resulted in excessive SSI payments. SSA initially
agreed with our recommendations. However, in September 2010, SSA informed us it
determined the issue was more complex than originally anticipated. SSA stated it did
not have sufficient resources to implement a system correction. SSA further stated that
such a correction would likely require a Strategic Information Technology Assessment
Review to support the changes.

Based on the results of the September 2009 audit, we reviewed all instances where
combined SSA payments to concurrently entitled beneficiaries exceeded the FBR. In
December 2010, we obtained data from SSA’s payment records that identified
approximately 29,000 concurrently entitled beneficiaries who received combined SSA
payments that exceeded the FBR plus the $20 unearned income exclusion by at
least $3. Our review focused on payments to these beneficiaries. (See Appendix B for
additional information on our scope and methodology.)




5
  SSA OIG, Supplemental Security Income Overpayments to Concurrent Beneficiaries Resulting from
Incorrect Benefit Calculations (A-06-09-29103), September 2009.
Page 3 - The Commissioner


RESULTS OF REVIEW
In December 2010, SSA issued more than 29,000 concurrent beneficiaries combined
SSA payments that exceeded Federal limits.

•     SSA improperly issued 2,073 concurrent beneficiaries combined payments in excess
      of Federal limits as the result of 2 systems-related payment computation errors.

       The individuals’ Master Beneficiary Records (MBR) did not contain an SSI data
        (SID) segment. 6 As a result, SSA did not count OASDI benefits against SSI
        payments for 1,006 concurrent beneficiaries.

       A systems input intended to prevent double counting 7 unintentionally froze
        OASDI benefit amounts used in subsequent SSI unearned income computations
        at amounts lower than actually paid for 1,067 concurrent beneficiaries.

•     Most of the remaining cases identified where SSA issued concurrent beneficiaries
      combined payments in excess of Federal limits were not overpayments. SSA paid
      the beneficiaries amounts in excess of Federal limits because of retrospective
      monthly accounting (RMA).

In April 2011, we forwarded SSA data files that identified the 2,073 beneficiaries and
requested SSA take action to correct the payment errors. SSA Operations
disseminated the cases to applicable regional offices for action. SSA completed
reviews of these cases in September 2011 and provided information indicating that
Office of Operations staff had corrected the payment errors, identified $5,475,209 in
excess payments, and established overpayments on applicable payment records. Had
SSA not corrected these errors, we estimate it would have made approximately
$2.2 million in additional erroneous payments over the next 12 months (see
Appendix C).

Missing SID Segment

We identified 1,006 concurrent beneficiaries who had received excessive SSI payments
because SSA did not count their OASDI benefits against their SSI payments. This
occurred because SSA did not properly link the individuals’ OASDI and SSI payment
records. To illustrate, in June 2010, SSA began paying an individual $674 in monthly
SSI. In September 2010, SSA also began paying the same individual $1,807 in monthly
Disability Insurance (DI) benefits. Initiation of the DI payments should have made the


6
    This SID segment establishes a link between the OASDI and SSI payment records.
7
 Refers to amounts SSA withholds from a beneficiary’s OASDI payment in satisfaction of a prior
overpayment. If SSA determines (1) the beneficiary was concurrently entitled when an OASDI
overpayment occurred and (2) SSA offset the overpaid amount from the beneficiary’s previous SSI
payments, SSA excludes withheld amounts from the SSI payment computation.
Page 4 - The Commissioner


individual ineligible for an SSI payment. However, SSA continued to issue the
$674 SSI payment. 8

In September 2011, SSA provided information indicating that Operations staff had
reviewed each of the 1,006 cases, corrected the payment errors, and established
applicable overpayments.

Unearned Income Reduction Indicator Code “Y”

We identified 1,067 beneficiaries who received excessive SSI payments because of
computation errors caused when SSA staff input an Unearned Income Reduction
indicator code of “Y” on their payment record. This code indicated that field office staff
determined double counting applied, and SSA should not consider amounts withheld
from the beneficiaries’ OASDI payments as unearned income. However, it also
appeared that this indicator erroneously froze the OASDI benefit amount used in the
SSI payment computation during the entire period SSA recouped OASDI overpayments
from the beneficiaries. Once SSA input the indicator code on the payment record, the
SSI payment computation no longer considered benefit payment increases awarded to
these beneficiaries.

In these cases, SSA used smaller OASDI benefit amounts in the December 2010
SSI payment computation than it actually paid these individuals. To illustrate, in
October 2007, an SSI recipient began receiving $751 in monthly DI benefits. 9 In
December 2008, SSA determined it had overpaid the individual $2,305 in DI benefits
and initiated collection of $40 a month from the individual’s DI benefit payment. SSA
input an unearned income reduction indicator code “Y” on the individual’s SSI payment
record. For an unknown reason, the SSI payment computation used $0 as the DI
benefit amount, which resulted in the erroneous initiation of a $674 monthly SSI
payment beginning in January 2009. 10

In September 2011, SSA provided information indicating that Operations staff had
reviewed each of the 1,067 cases, corrected the payment errors, and established
applicable overpayments.




8
 In July 2011, SSA reviewed this case, terminated the SSI payment and established a
$9,436 overpayment on the individual’s SSI payment record.
9
  At the time of the audit, the beneficiary’s cost-of-living adjusted monthly benefit payment had increased
to $773.
10
  The SSI payments included an additional $87 in monthly state supplemental benefits that SSA should
also have partially reduced. In July 2011, SSA reviewed this case, suspended the SSI payments, and
established a $20,547 overpayment on the individual’s SSI payment record.
Page 5 - The Commissioner


RMA

SSA computes SSI payments using RMA. 11 Under RMA, SSA generally reduces a
concurrent beneficiary’s SSI payment using known countable income from 2 months
earlier. This time lapse reduces the administrative burden associated with establishing
and collecting overpayments caused when SSA becomes aware of a recipient’s
countable income shortly after it issues an SSI payment.

Cash benefits received under various governmental assistance programs are exempt
from RMA and reduce beneficiaries’ SSI payments in the month received. 12 Likewise,
OASDI benefit increases that result from cost-of-living allowances are also exempt from
RMA. 13 However, Federal law does not exempt other OASDI benefit payment
increases from RMA. Accordingly, a concurrent beneficiary with no other countable
income who receives a non-cost-of-living allowance OASDI benefit increase generally
will not see a corresponding decrease in SSI payments for 2 months. As a result, we
identified thousands of concurrent beneficiaries who received combined December
2010 OASDI and SSI payments in excess of the FBR. 14

                   We reviewed SSA payment records for 50 of the 29,008 concurrent
     Sample        beneficiaries whose combined December 2010 SSA payments
     Results       exceeded Federal limits. In 41 of 50 cases, application of RMA to
                   non-cost-of-living OASDI benefit payment increases allowed the
                   beneficiaries to receive SSA payments in excess of the Federal
       15
limits. For example, the Automatic Earnings Reappraisal Operation (AERO) is a
computer operation that reexamines an individual’s earnings record to determine
whether the worker is due a benefit recomputation to include earnings not previously
considered. 16 AERO is run twice for each earnings year, usually in late October and
late the following March. SSA issues payments reflecting any benefit increases due in
December and May. If AERO results in a benefit increase, SSA pays the beneficiary
not only the increased amount for the current month, but also any retroactive benefits



11
     Pub. L. No. 97-35, enacted August 13, 1981.
12
  Pub. L. No. 100-203, enacted December 22, 1987, exempted amounts received under Aid to Families
with Dependent Children/Temporary Assistance for Needy Families, foster care, refugee cash assistance,
Cuban-Haitian entrant assistance, and general and child welfare assistance provided by the Bureau of
Indian Affairs from RMA.
13
     Pub. L. No. 98-369, enacted July 18, 1984.
14
  Although these beneficiaries received combined SSA payments in excess of Federal limits, we
determined that SSA computed and issued the payments in accordance with RMA.
15
  The 41 beneficiaries received $4,750 (average of $116) in combined payments in excess of the FBR
plus the $20 unearned income exclusion.
16
     SSA, POMS, TC 11001.110B (October 24, 2002).
Page 6 - The Commissioner

due. 17 Because RMA applies to these benefit payment increases, concurrent
beneficiaries receive increased OASDI benefits for 2 months with no corresponding
reduction in their SSI payment.

                      In November 2010, SSA paid a concurrent beneficiary $273 in DI and
     RMA Case         $421 in SSI. Based on 2009 earnings information identified during
     Example          the 2010 AERO process, SSA determined the individual’s monthly DI
                      benefit should have been $311 in 2010.

On November 5, 2010, SSA notified the individual that her December 2010 DI payment
would consist of the new $311 benefit amount plus the $380 difference between
$273 and the $311 that SSA should have paid each month from January through
October 2010. Since RMA applied, SSA did not count the OASDI benefit increase paid
in December 2010 against the beneficiary’s SSI payment until February 2011, causing
the beneficiary to experience significant fluctuations in total SSA payments over several
months (see Table 1).

                        Table 1. Payments to a Sample Concurrent Beneficiary
                                 November 2010 Through March 2011
                                      Nov        Dec       Jan       Feb             Mar
                                     2010        2010     2011      2011             2011
                       DI Payment    $273        $691     $311      $311             $311

                       SSI Payment      $421       $421        $421        $3        $383
               Total SSA Payments       $694      $1,112       $732       $314       $694

Such large benefit fluctuations can result in unnecessary financial hardship. While this
beneficiary initially received a temporary increase in total payments, her combined SSA
payments in February 2011 totaled only $314—less than half the FBR. The benefit
fluctuations can also confuse affected beneficiaries and result in expenditure of
additional administrative resources. In the case above, SSA mailed the beneficiary
three separate notices to explain the payment changes that occurred from December
through March. Further, discussion with SSA personnel indicated the written notices
are not always effective in explaining the payment fluctuations, and beneficiaries
sometimes make multiple field office visits with payment questions.

When SSA issues SSI payments to concurrent beneficiaries, it also knows the amount
of OASDI benefits payable. Legislation allowing current monthly OASDI benefits to be
immediately counted against current SSI payments would better ensure a consistent
income stream to this vulnerable population, avoid confusion, and reduce the
administrative burden associated with explaining the payment fluctuations.



17
  As part of this review, we did not determine whether SSA correctly applied SSI windfall offset
provisions to the retroactive OASDI benefit payments.
Page 7 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
In December 2010, more than 2,000 concurrent beneficiaries received excess SSI
payments because SSA did not accurately count OASDI benefits against their SSI
payments. We recognize this is a small number of payment errors relative to the
2.7 million beneficiaries who receive both OASDI and SSI payments each month.
However, because of the errors, SSA paid the beneficiaries approximately $5.5 million
to which they were not entitled. Had these payment errors not been identified and
corrected, we estimate SSA would have made an additional $2.2 million in erroneous
payments over the next 12 months.

Thousands of additional concurrent beneficiaries received combined SSA payments in
December 2010 that exceeded Federal limits because SSA computed their payments
using RMA. Exempting OASDI benefit increases from RMA would better ensure a
consistent income stream to these SSI recipients, avoid confusion, and reduce the
administrative burden associated with explaining payment fluctuations.

As a result, we recommend that SSA:

1. Determine whether it can implement cost-effective system enhancements that
   address the payment computation errors.

2. Consider pursuing a legislative proposal to exempt OASDI benefit payments from
   RMA.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with Recommendation 1 stating it had implemented a change to address
the types of payment computation errors discussed in the report. SSA also stated it
would continue evaluating other cost-effective system enhancements that address
payment computation errors.

SSA disagreed with Recommendation 2 stating that before it considers proposing
legislation on this issue, it must study the benefits, feasibility, and costs of such a
proposal and ensure the proposal does not result in unintended consequences. We
look forward to the results of this study.

In this case, completion of a preliminary cost-benefit study is an important part of the
consideration process. As a result, we believe SSA’s comments are responsive,
address the findings discussed in the report, and meet the intent of our
recommendations.




                                          Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sample Results and Estimate of Funds Put to Better Use

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
AERO          Automatic Earnings Reappraisal Operation
DI            Disability Insurance
FBR           Federal Benefit Rate
MBR           Master Beneficiary Record
OASDI         Old-Age, Survivors and Disability Insurance
OIG           Office of the Inspector General
Pub. L. No.   Public Law Number
RMA           Retrospective Monthly Accounting
SID           Supplemental Security Income Data
SSA           Social Security Administration
SSI           Supplemental Security Income
UMR           Unearned Income Reduction Code
U.S.C.        United States Code
                                                                                  Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and Social Security
    Administration (SSA) regulations, rules, policies, and procedures.

•   Reviewed relevant Office of the Inspector General reports.

•   Researched the Master Beneficiary/Supplemental Security Record interface and
    discussed the interface with Office of Systems personnel.

•   Obtained data identifying 2,690,020 concurrent beneficiaries in current payment
    status as of December 2010. We then removed records where

     current date of entitlement was from November 2010 to July 2011 because of the
      lag between the date of entitlement and actual date the beneficiary received
      benefits,

     the beneficiary received windfall amounts from March 2010 to March 2011
      because of the lag when beneficiaries actually received windfall amounts,

     the beneficiary did not receive Supplemental Security Income (SSI) payments but
      received State supplemental payments, and

     combined SSA payments exceeded the Federal limit by less than $3.

•    Identified 29,008 records where concurrent beneficiaries received combined SSI
     and Old-Age, Survivors and Disability Insurance (OASDI) payments that exceeded
     the Federal Benefit Rate (FBR) plus the $20 unearned income exclusion by $3 or
     more. 1 We reviewed 50 randomly selected records and identified the following
     (see Table B-1).




1
  Our audit population did not include concurrent beneficiaries who received less than $694 in combined
SSA payments due to receipt of countable income from non-SSA sources. As a result, our audit results
understate the number of beneficiaries affected by the payment errors and anomalies discussed in the
report.


                                                 B-1
                                          Table B-1
    Review of 50 Concurrent Beneficiaries with Combined SSA Payments in Excess of FBR
             Reason Combined Payments Exceeded FBR                Records     Percent
    Application of Retrospective Monthly Accounting to OASDI Benefit Increases       41         82
    No Supplemental Security Identification Data (SID) Segment                        3         6
    Unearned Income Reduction Code (UMR) Indicator Code “Y”                           3         6
    Unknown 2                                                                         3         6
    Total                                                                            50        100

•     Identified 2,073 of the 29,008 records where concurrently entitled beneficiaries
      received SSA benefits in excess of the Federal limit because either no SID segment
      existed on the Master Beneficiary Record or a “Y” UMR indicator code existed on the
      Supplemental Security Record. Of these 2,073 records, we selected a random
      sample of 50 records for detailed analysis. For each sampled case, we

       calculated beneficiaries’ past SSI payments over the FBR, 3

       identified records SSA corrected between December 2010 and March 2011, and

       estimated beneficiaries’ future SSI payment errors. 4

We conducted our audit between December 2010 and August 2011 in Dallas, Texas.
We determined the data used for this audit were sufficiently reliable to meet our audit
objective. The entities audited were the field offices and program service centers under
the Office of the Deputy Commissioner for Operations and the Offices of Retirement
and Survivors Insurance Systems, Disability Systems, and Applications and
Supplemental Security Income Systems under the Office of the Deputy Commissioner
for Systems. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective.




2
 We could not determine why SSA issued these beneficiaries combined SSA payments in excess of the
FBR. We forwarded these cases to SSA’s Office of Operations for review.
3
    We calculated past payment errors based on amounts SSA paid before April 2011.
4
    We estimated future payment errors based on March 2011 payment errors multiplied by 12 months.


                                                  B-2
                                                                                 Appendix C

Sample Results and Estimate of Funds Put to
Better Use
We identified 2,073 concurrent beneficiaries who improperly received combined
December 2010 Supplemental Security Income (SSI) and Old-Age, Survivors and
Disability Insurance (OASDI) payments in excess of Federal limits. We determined the
payment errors occurred either because

•     the beneficiary’s Master Beneficiary Record (MBR) did not contain an SSI data (SID)
      segment so SSA did not count OASDI benefits against the beneficiary’s SSI
      payments or

•     a systems input intended to prevent double counting unintentionally froze OASDI
      benefit amounts used in subsequent SSI payment computations at amounts lower
      than actually paid.

We reviewed 50 randomly selected records and estimated the amount of additional SSI
payment errors that SSA would make over the next 12 months if Agency staff did not
correct the errors (see Table C-2). 1


                              Table C-1: Population and Sample Size
                             Population Size               2,073
                             Sample Size                             50

                           Table C-2: Estimate of Future Payment Errors
                            Number of Records           Erroneous Payments
                                  42 2                         $52,921




1
    Based on erroneous SSI amounts SSA paid the individuals in March 2011 multiplied by 12 months.
2
 Between December 2010 and March 2011, SSA appeared to have corrected the payment errors on
eight records. We excluded the eight records from our estimate.


                                                 C-1
Projecting these results to our population of 2,073 cases, we estimate that SSA would
have paid approximately $2.2 million in additional erroneous payments over the next
12 months if Agency staff had not corrected these errors (see Table C-3).

                                                                       Erroneous
      Table C-3: Estimated Future Erroneous SSI Payments               Payments

 Sample Results                                                            $52,921

 Point Estimate                                                         $2,194,103

 Projection Lower Limit                                                 $1,252,655

 Projection Upper Limit                                                 $3,135,551
Note: All projections are at the 90-percent confidence level.




                                                  C-2
                  Appendix D

Agency Comments
                                      SOCIAL SECURITY

MEMORANDUM


Date:   January 30, 2012                                                        Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “Supplemental Security Income Recipients
        Receiving Social Security-Administered Payments in Excess of Federal Limits”
        (A-06-10-21066)—INFORMATION

        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Teresa Rojas at (410) 966-6784.

        Attachment




                                                      D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“SUPPLEMENTAL SECURITY INCOME RECIPIENTS RECEIVING SOCIAL
SECURITY-ADMINISTERED PAYMENTS IN EXCESS OF FEDERAL LIMITS” (A-06-
10-21066)

Recommendation 1

Determine if it can implement cost-effective system enhancements that address the payment
computation errors.

Response

We agree. We recently implemented a change to address incorrect payment computation for
some of the types of cases mentioned in the audit. We will continue to evaluate other cost
effective systems enhancements that address payment computation errors.

Recommendation 2

Consider pursuing a legislative proposal to exempt Old-Age, Survivors and Disability Insurance
(OASDI) benefit payments from Retrospective Monthly Accounting (RMA).

Response

We disagree. Before we consider proposing legislation on this issue, we must study the benefits,
feasibility, and costs (including administrative and program costs) of such a proposal, and make
certain there would be no unintended consequences, including creating inequities by continuing
to count other types of income.




[SSA also provided a technical comment that we incorporated into the report.]




                                             D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   Wanda Renteria, Senior Auditor

   Joseph Cross, Information Technology Specialist

   Renalda Stallworth, Senior Information Technology Specialist

   Chuck Zaepfel, Information Technology Specialist

For additional copies of this report, please visit our Website at http://oig.ssa.gov/
or contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-06-10-21066.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
